<html>
<title> - COAST GUARD MISSION CAPABILITIES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]








                    COAST GUARD MISSION CAPABILITIES

=======================================================================

                                (109-72)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                COAST GUARD AND MARITIME TRANSPORTATION

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 11, 2006

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure













                    U.S. GOVERNMENT PRINTING OFFICE

28-287 PDF                  WASHINGTON : 2006
------------------------------------------------------------------
For sale by Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800;
DC area (202) 512-1800 Fax:  (202) 512-2250. Mail:  Stop SSOP, 
Washington, DC 20402-0001
























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
VERNON J. EHLERS, Michigan           BOB FILNER, California
SPENCER BACHUS, Alabama              EDDIE BERNICE JOHNSON, Texas
STEVEN C. LaTOURETTE, Ohio           GENE TAYLOR, Mississippi
SUE W. KELLY, New York               JUANITA MILLENDER-McDONALD, 
RICHARD H. BAKER, Louisiana          California
ROBERT W. NEY, Ohio                  ELIJAH E. CUMMINGS, Maryland
FRANK A. LoBIONDO, New Jersey        EARL BLUMENAUER, Oregon
JERRY MORAN, Kansas                  ELLEN O. TAUSCHER, California
GARY G. MILLER, California           BILL PASCRELL, Jr., New Jersey
ROBIN HAYES, North Carolina          LEONARD L. BOSWELL, Iowa
ROB SIMMONS, Connecticut             TIM HOLDEN, Pennsylvania
HENRY E. BROWN, Jr., South Carolina  BRIAN BAIRD, Washington
TIMOTHY V. JOHNSON, Illinois         SHELLEY BERKLEY, Nevada
TODD RUSSELL PLATTS, Pennsylvania    JIM MATHESON, Utah
SAM GRAVES, Missouri                 MICHAEL M. HONDA, California
MARK R. KENNEDY, Minnesota           RICK LARSEN, Washington
BILL SHUSTER, Pennsylvania           MICHAEL E. CAPUANO, Massachusetts
JOHN BOOZMAN, Arkansas               ANTHONY D. WEINER, New York
JIM GERLACH, Pennsylvania            JULIA CARSON, Indiana
MARIO DIAZ-BALART, Florida           TIMOTHY H. BISHOP, New York
JON C. PORTER, Nevada                MICHAEL H. MICHAUD, Maine
TOM OSBORNE, Nebraska                LINCOLN DAVIS, Tennessee
KENNY MARCHANT, Texas                BEN CHANDLER, Kentucky
MICHAEL E. SODREL, Indiana           BRIAN HIGGINS, New York
CHARLES W. DENT, Pennsylvania        RUSS CARNAHAN, Missouri
TED POE, Texas                       ALLYSON Y. SCHWARTZ, Pennsylvania
DAVID G. REICHERT, Washington        JOHN T. SALAZAR, Colorado
CONNIE MACK, Florida                 JOHN BARROW, Georgia
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
JEAN SCHMIDT, Ohio

                                  (ii)




















?

        SUBCOMMITTEE ON COAST GUARD AND MARITIME TRANSPORTATION

                FRANK A. LOBIONDO, New Jersey, Chairman

HOWARD COBLE, North Carolina         BOB FILNER, California, Ranking 
WAYNE T. GILCHREST, Maryland         Democrat
PETER HOEKSTRA, Michigan             CORRINE BROWN, Florida
ROB SIMMONS, Connecticut             GENE TAYLOR, Mississippi
MARIO DIAZ-BALART, Florida           JUANITA MILLENDER-McDONALD, 
DAVID G. REICHERT, Washington,Vice-  California
Chair                                MICHAEL M. HONDA, California
CONNIE MACK, Florida                 ANTHONY D. WEINER, New York
LUIS G. FORTUNO, Puerto Rico         BRIAN HIGGINS, New York
CHARLES W. BOUSTANY, Jr., Louisiana  BRIAN BAIRD, Washington
DON YOUNG, Alaska                    JAMES L. OBERSTAR, Minnesota
  (Ex Officio)                         (Ex Officio)

                                 (iii)
























                                CONTENTS

                               TESTIMONY

                                                                   Page
 Justice, Rear Admiral Wayne E., Director of Enforcement and 
  Incident Management, U.S. Coast Guard..........................     4
 Nimmich, Rear Admiral Joseph L., Assistant Commandant for Policy 
  and Planning, U.S. Coast Guard.................................     4

          PREPARED STATEMENT SUBMITTED BY A MEMBER OF CONGRESS

LoBiondo, Hon. Frank A., of New Jersey...........................    34

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Justice, Rear Admiral Wayne E...................................    18
 Nimmich, Rear Admiral Joseph L..................................    18

                       SUBMISSIONS FOR THE RECORD

Kelly, Hon. Sue, a Representative in Congress from New York, U.S. 
  Coast Guard ship photographs...................................    12

 Justice, Rear Admiral Wayne E., Director of Enforcement and 
  Incident Management, U.S. Coast Guard, and Rear Admiral Joseph 
  L. Nimmich, Assistant Commandant for Policy and Planning, U.S. 
  Coast Guard:
  Rescue 21 Ground Subsystem Installation timeline, chart........    16
  Responses to questions from Rep Brown-White....................    26

















 
                    COAST GUARD MISSION CAPABILITIES

                              ----------                              


                             May 11, 2006,

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Coast Guard and Maritime Transportation, 
            Washington, D.C.

    The committee met, pursuant to call, at 10:00 a.m. in room 
2167, Rayburn House Office Building, the Honorable Frank A. 
LoBiondo [Chairman of the committee] presiding.
    Mr. LoBiondo. Good morning. The Subcommittee is coming to 
order, and the Subcommittee is meeting this morning to review 
the Coast Guard's capabilities to carry out its many 
traditional maritime homeland security missions, as well as to 
examine the progress of several systems designed to enhance 
maritime domain awareness.
    Over the last five years, the Coast Guard's budget, 
personnel level and mission scope have expanded to meet the 
Service's increased responsibility for maritime homeland 
security. However, it is unclear whether these enhanced 
maritime homeland security responsibilities are negatively 
affecting the Coast Guard's responsibility to carry out its 
many traditional missions. A GAO report in 2004 revealed that 
resource hours for many of the Coast Guard's traditional 
missions have decreased as demands of the port security 
missions have increased.
    While I do not believe the number of hours devoted to each 
mission is a true indication of mission performance, I am 
concerned that the Coast Guard's traditional missions may be 
suffering as a result of the priority level of homeland 
security missions. At the same time, the Coast Guard's legacy 
vessels are increasingly unavailable, due to operational 
restrictions or unscheduled maintenance, caused by the 
unexpected deterioration of the assets.
    For example, the 110-foot patrol boat fleet has experienced 
numerous hull failures, creating an overall readiness gap. 
These vessels will be replaced under the Deepwater program. But 
I am very, very concerned how any shortfall in asset readiness 
will affect the Coast Guard's mission capabilities in the 
meantime.
    I hope to hear more this morning from the Coast Guard's 
plans to maintain a balance between all its missions and about 
the actions the Coast Guard is taking to improve the efficiency 
of each of its missions.
    The Coast Guard currently is in the process of employing 
improved technology systems to enhance its awareness of 
activities occurring within the maritime domain. The Coast 
Guard has begun the national implementation of the Automatic 
Identification System, AIS, in U.S. ports and coastal waters. 
AIS will enhance the Coast Guard's capabilities to target and 
track vessels as they enter and exit our Nation's ports. This 
system, coupled with long range vessel tracking systems, will 
allow the Coast Guard to monitor commercial vessel traffic up 
to 2,000 miles from shore.
    Under current law, the Coast Guard is required to develop 
and implement a long range vessel tracking system. However, no 
such system is in place today. I believe we must extend our 
tracking capabilities beyond our immediate coastal waters. I 
realize that the Coast Guard is working through the 
International Maritime Association to develop international 
standards for such a system, but this should not stop the 
United States from instituting its own program in the interim. 
I hope the witnesses will provide us with an update on this 
important program and an idea of when and where we should 
expect a final system to be implemented.
    Lastly, the Coast Guard is in the process of recapitalizing 
its maritime control command and communications system through 
the Rescue 21 program. This program will allow the Coast Guard 
personnel to respond faster to maritime emergencies through the 
use of directional finding equipment that will aid in locating 
distressed mariners. Rescue 21 is already in place in my home 
State of New Jersey, and we have seen the tremendous upgrades 
that this program provides.
    I hope to hear more about the plan for the implementation 
of this system nationwide and on how the Coast Guard plans to 
incorporate the capabilities of this program with the Service's 
other maritime domain awareness initiatives.
    I want to again thank the witnesses for coming this 
morning. We look forward to hearing your testimony. Now I will 
turn it over to Mr. Filner.
    Mr. Filner. Good morning and thank you, Mr. Chairman, for 
this hearing.
    As you may remember, several years ago when Admiral Collins 
testified before this Committee, he said that the multi-mission 
approach of the Coast Guard means they cannot carry out any of 
their missions optimally, but they can provide them in the most 
cost effective manner for our Nation. If we were to have 
different single purpose agencies for the various Coast Guard 
missions, they might be more successful carrying out those 
missions, but it would cost a lot more.
    Since the transfer of the Coast Guard from the Department 
of Transportation to the Department of Homeland Security, we 
have seen a reduction of resources in traditional Coast Guard 
missions and an increase in homeland security missions of the 
Coast Guard. In the President's proposed budget for fiscal year 
2007, the Administration is proposing to cut funding for marine 
safety programs from $502 million to $453 million, and cutting 
funding for search and rescue missions from $629 million to 
$569 million. Meanwhile, funding for port security would 
increase from $1.2 to $1.4 billion.
    Now, the automatic identification system mentioned by the 
Chairman was developed as a collision avoidance system to help 
protect ships from colliding in our waters. The law requires, 
as you know, all commercial vessels over 65 feet long and all 
towing vessels over 26 feet to have an AIS system on board.
    However, the Coast Guard's own regulations only require AIS 
systems for those vessels that operate in a so-called vessel 
traffic service area. As a result, if a towing vessel operates 
above Baton Rouge, Louisiana, they are required by law but not 
Coast Guard regulation to have an AIS system on board. I think 
it is time for the Coast Guard to recognize that this system 
was developed for prevention of marine casualties and not 
solely as a means of tracking vessels for homeland security 
purposes. Just because the Coast Guard can't track a vessel on 
the Mississippi River north of Baton Rouge doesn't mean that 
the vessels aren't required by law to have that AIS 
transponder.
    Similarly, Congress has required these same vessels to have 
electronic charts on board beginning January 1st of 2007. 
However, the Coast Guard has not yet prescribed any regulations 
telling them what kind of electronic charts they have to have 
on board. Again, just because the Coast Guard doesn't prescribe 
the standards for electronic charts doesn't mean the vessel 
owners don't have to have them.
    Congress wrote this statutory requirement to prevent 
accidents, like the one where the captain of the towing vessel 
Mauvilla got lost in the fog and struck a railroad bridge on 
September 22nd of 1993. Shortly thereafter, the Amtrak train, 
Sunset Limited, crossed the bridge and plunged into the 
waterway, killing 45 people. Electronic charts with GPS can 
prevent these types of disasters. So the Coast Guard, I think, 
needs to provide the resources necessary for the marine safety 
program to prescribe these regulations on time for the industry 
to comply with our statutory deadline.
    If the Coast Guard is not committed or cannot carry out 
these statutory responsibilities for programs like marine 
safety, then maybe it is time that these functions be 
transferred back to the Department of Transportation. Vessel 
safety inspections, licensing of mariners, documentation of 
registration of ships, are exactly the same functions that are 
carried out by DOT today for both aviation and rail. Those 
safety responsibilities for these other modes of transportation 
were not transferred to the Department of Homeland Security, 
because they were not thought to be directly related to our 
security. But in fact, these safety missions of the Coast Guard 
were not transferred to the Coast Guard until after World War 
II and had been carried out previously by the Bureau of Marine 
Inspection and Navigation.
    So these are issues I hope we explore today, Mr. Chairman. 
Thank you for scheduling this hearing. I look forward to 
working with you to ensure that there continues to be adequate 
support for all of the Coast Guard's non-homeland security 
missions as well as their homeland security function.
    Mr. LoBiondo. Thank you, Mr. Filner.
    We are very pleased with the panel that has joined us. We 
have Rear Admiral Joseph L. Nimmich, Assistant Commander for 
Policy and Planning of the United States Coast Guard and Rear 
Admiral Wayne E. Justice, Director of Enforcement and Incident 
Management for the United States Coast Guard.
    We thank you very much for being here. Admiral Justice, 
please proceed.

    TESTIMONY OF REAR ADMIRAL WAYNE E. JUSTICE, DIRECTOR OF 
ENFORCEMENT AND INCIDENT MANAGEMENT, UNITED STATES COAST GUARD; 
REAR ADMIRAL JOSEPH L. NIMMICH, ASSISTANT COMMANDANT FOR POLICY 
            AND PLANNING, UNITED STATES COAST GUARD

    Admiral Justice. Good morning, Mr. Chairman, distinguished 
members of the Committee.
    It is our pleasure to appear before you today representing 
the men and women of the Coast Guard to discuss our continuing 
success in balancing the Coast Guard's organizational 
performance across our missions. Additionally, we will provide 
you with an update on the Coast Guard's ongoing efforts to 
improve our mission performance for the scope and application 
of technology to the Nation's maritime domain awareness needs. 
I ask that my written statement be entered into the hearing 
record.
    The Coast Guard's world of work is our oceans, lakes, 
rivers, harbors and our waterways. It is the maritime domain 
and it is unique. Distinct from land borders characterized by 
clear, easily distinguished legal boundaries, our oceans 
represent the last global commons. It is fundamental to our own 
and the international communities' economic prosperity.
    As a result, maritime safety and security are not just 
issues of U.S. national interest, but of global stability. The 
maritime domain is extremely intricate and unparalleled by the 
variety of users.
    Our Nation has built a Coast Guard within the Department of 
Homeland Security that is able to successfully operate in this 
complex and unique environment. The Coast Guard exercises 
authorities and deploys capabilities to guarantee the safety 
and security of the U.S. maritime domain. That's who we are: 
military, multi-mission and maritime.
    While the character and the nature of our service are 
clear, our missions are by no means static. New threats emerge 
as others are mitigated, and the Coast Guard's capabilities, 
competencies, organizational structure and processes must 
evolve accordingly. The Coast Guard must be steadfast in its 
character but adaptive in its methods.
    The Coast Guard is the lead Federal agency for maritime 
homeland security, a role supported by its unique complement of 
authorities, maritime capabilities, proven competencies and 
longstanding domestic international partnerships. Carrying out 
this role requires a Coast Guard that is ready to act, enabled 
by awareness and well equipped.
    In addition to current activity levels, focus should be on 
examining the Coast Guard's results with respect to its 
performance targets and the degree to which the Coast Guard 
continues to mitigate risks for me in the maritime domain 
across all missions. The post-9/11 environment demands that we 
focus on addressing the threats, reduce risk in the maritime 
domain and strive to achieve our performance goals in all 
mission areas.
    The Coast Guard has successfully insured that both homeland 
security and non-homeland security missions are properly 
executed. We met 8 of our 11 mission goals in fiscal year 2005 
through a balanced allocation of resources across all Coast 
Guard mission programs. While we do not have the final results 
of the fiscal year 2006 performance, all indications are that 
the balance of performance will be similar to that of 2005.
    Coast Guard forces are flexible, rapidly deployable and 
able to respond to crises in a full range of capabilities. The 
Coast Guard has adapted to growing mission demands, to enhanced 
maritime security, while continuing to meet other mission 
requirements. Examples of these growing demands include natural 
disaster response, drug and migrant interdiction, military 
security, and support for Operations Iraqi Freedom and Enduring 
Freedom.
    Looking forward to fiscal year 2007, our budgets and 
missions further strengthens the Coast Guard preparedness 
across all our missions and enhances our capability to respond 
to all hazards and threats within the maritime domain. Our 
fiscal year 2007 budget submission, among other things, reduces 
the inflationary cost gaps for depot level maintenance and 
energy resources, supports the medium endurance cutter mission 
affecting this project and funds Deepwater logistic support.
    Equally important to readiness and awareness is equipping 
and training the Coast Guard personnel with capabilities and 
competencies to respond effectively. For example, the advance 
notice of arrival requires vessels entering the United States, 
it is critical to understand who and what is arriving in order 
to identify potential threats. However, if Coast Guard assets 
do not have the capabilities necessary to deal with these 
identified threats early and effectively, an opportunity to 
mitigate risk is lost.
    Fiscal year 2007 budget initiatives include funding the 
Deepwater modernization program, Rescue 21, National Capital 
Region Air Defense Infrastructure and Operations, enhancements 
to maritime security and response team, and our airborne use of 
force operations. Additionally, securing our vast maritime 
borders depends upon our ability to enhance maritime domain 
awareness, which Rear Admiral Nimmich will further discuss.
    Thank you. It is an honor to be here, sirs, and I look 
forward to answering your questions.
    Mr. LoBiondo. Thank you, Admiral Justice.
    I would like to ask unanimous consent that Mrs. Kelly be 
allowed to participate in this hearing. Thank you.
    Admiral Nimmich, please proceed.
    Admiral Nimmich. Good morning, Mr. Chairman and 
distinguished members of the Committee. It is a pleasure to be 
here with you today to discuss the Coast Guard's maritime 
domain awareness efforts. Because of its vast size and complex 
nature, the maritime domain is particularly susceptible to the 
exploitation by individuals, organizations and nations. It 
uniquely facilitates freedom of movement and flow of goods 
while allowing people, cargo and conveyances to transit with a 
degree of anonymity generally unavailable with land and air 
movement.
    To counter these threats, the foundation of our maritime 
strategy relies on three key points: achieving maritime domain 
awareness, establishing and leading a maritime security regime; 
and the deployment of effective and integrated operational 
capability. These are not standalone goals, but rather part of 
an active system of layered maritime security. Enhancing our 
awareness in the maritime domain will only be made possible by 
improving our ability to collect, fuse, analyze, display and 
disseminate actionable information and intelligence to our 
operational commanders.
    This awareness must become increasingly comprehensive as 
potential threats approach the U.S. coast. We must know what is 
normal and what is not normal throughout the marine 
transportation system and the maritime domain, so we can best 
assess potential risks and take the appropriate actions.
    The collection to dissemination process emphasizes unity of 
effort between all levels of government, the private sector and 
our international partners with the following goals in mind: 
enhance transparency in the maritime domain to detect, deter 
and defeat threats as early and as distant from our shores as 
possible; enable accurate, dynamic and competent decisions and 
responses to the full spectrum of the maritime threat; 
persistently monitor vessels and craft, cargo, crews and 
passengers, in identified areas of interest in the global 
maritime domain, and then fully adhere to the law to ensure the 
freedom of navigation, the efficient flow of commerce and 
individual rights.
    Thanks to the strong support of the Administration, 
Congress and this Committee in particular, a number of 
initiatives are underway to transform Coast Guard capabilities 
to align with these national goals and the efforts of our 
partners. However, we must do more than provide improved 
capabilities. Our efforts must also include policy, technology 
and operation contributions that will enable enhanced global 
maritime security.
    I would like to provide you with three examples related to 
partnerships, research and technology deployment. In 
partnerships, we are establishing partnerships to share 
information and better leverage resources. These efforts 
include partnerships with Federal departments such as the 
Project Seahawk in Charleston, and the Joint Harbor Operations 
Centers with the Navy and other partners in San Diego and the 
Hampton Roads.
    Internationally, we are developing information sharing 
agreements with a number of other maritime nations, as well as 
pursuing global solutions at the IMO, International Maritime 
Organization. In research, we are also partnering with the 
Department of Homeland Security, Science and Technology 
Directorate, as well as numerous entities within the Department 
of Defense to explore technological solutions to some of our 
thorniest problems.
    We have just completed the first stage of an effort to look 
at probably our most difficult problem: assessing, collating 
and organizing all the relevant, existing data about a given 
vessel, its cargo and its persons and identifying that and 
tracking it with the vessel. Technological deployment, we are 
finally taking a serious and deliberate look at our needs and 
how to prioritize and address them with technology that is 
available today.
    Through the Presidentially-chartered Maritime Domain 
Awareness Implementation team, our senior officials from across 
every Federal department are looking at their roles, 
responsibilities, existing capabilities and gaps in the 
Nation's maritime awareness. The MDA implementation team will 
develop, among other things, a coherent, integrated, 
interagency investment strategy that will help leverage 
existing capabilities and guide future budget efforts.
    Mr. Chairman, this Committee has played a significant role 
in the Coast Guard's recent noteworthy achievements and our 
ability to balance all of its post-9/11 missions. I would like 
to thank you for your strong support on behalf of the military, 
our civilian and our auxiliary volunteers.
    Mr. LoBiondo. Thank you, Admiral.
    I would like to turn to Mr. Filner to start off questions.
    Mr. Filner. Thank you, Mr. Chairman, and thank you, 
Admirals, for being here. When we began this experiment of 
giving the Coast Guard new homeland security duties on top of 
the traditional role of the Coast Guard, we all wondered aloud, 
I think, whether that could be done successfully, and whether 
there were sufficient resources and sufficient adaptability of 
the organization to do that.
    And let me just ask some questions about that, if I may. As 
I understand it, you have created sectors in your organization 
that merge maritime safety with operations centers. Now, that 
may make sense for homeland security. But the other aspects of 
your role, for example, marine safety, may be compromised. For 
example, can it happen that someone with little or no 
experience in marine safety be put in charge of the whole 
operation in a port, like a helicopter pilot? Is that possible 
under that new organization and how do you compensate for that?
    Admiral Justice. Great question, sir.
    We absolutely look at the skills sets of our sector 
commanders. I will speak from my experience. I just spent three 
and a half years in Miami, sir, where we stood up sectors. We 
made sure across the Seventh Coast Guard District, as we put 
people in San Juan and St. Petersburg and Miami and Key West 
and Charleston and Jacksonville that the skills sets required, 
whether they be search and rescue, law enforcement, maritime 
security and safety, were filled by the commanding officers.
    And if the CO, if the commanding officer didn't come in 
with that strongest background in one of the missions, he made 
sure that the executive officer, the deputy, the number two 
person, had that skill set. That was done very distinctly and 
with great forethought, sir.
    Mr. Filner. I'm sorry you didn't use the West Coast for 
your example.
    [Laughter.]
    Mr. Filner. But they may put me in charge of the San Diego 
sector, and that really would be a problem.
    Have you thought about hiring, for example, civilian 
maritime safety officers or inspectors who would have 
experience directly in that field? You rotate people around, 
you have to try these balancing acts. Do you have any plans to 
hire civilian inspectors?
    Admiral Justice. Specifically, I can't answer that, but I 
do know that we absolutely have that option and we do take the 
opportunity to hire civilians into the Coast Guard world that 
would provide continuity. I know for a fact we have done it in 
the search and rescue world, in our command centers at these 
sectors. We have taken the opportunity to put one or two 
civilians in there, to add some continuity and some local 
knowledge to those programs. So yes, sir.
    Mr. Filner. OK. I hope you will look at that for these 
sector kinds of issues.
    Just quickly on Katrina, where we have consistently praised 
the Coast Guard for its response, as this crisis is prolonged, 
I guess, you have had to reallocate resources and now we are 
told by some of the vessel owners that people who were 
conducting safety inspections are now doing other things. So 
they are not sure they are going to have their certificate of 
inspection on time.
    Do you have enough inspectors in the Gulf of Mexico to make 
sure that that won't happen?
    Admiral Justice. I would answer that, yes, we do. I would 
answer that, and I appreciate your calling that to my 
attention. What we do also, as we showed in Katrina, we have 
the ability, if we find an area that is light, we will surge 
people to that area to make sure we can respond to the needs of 
that mission.
    Mr. Filner. I hope so. Maybe we can get you those exact 
problem areas that have been referred to us so that we can make 
sure that doesn't occur.
    Mr. Chairman, I am not sure how you are going to handle the 
vote that is going on now.
    Mr. LoBiondo. It is going to be a long day.
    We have about 11 minutes left in this vote. I don't want to 
cut Mrs. Kelly off, so what I am going to ask for is a brief 
recess. It looks like only one vote. As soon as we can get over 
and vote and get back, we will pick back up again.
    So the Committee stands in recess.
    [Recess.]
    Mr. LoBiondo. The Committee will come back to order.
    I will now recognize Mrs. Kelly.
    Mrs. Kelly. I first want to thank you, Mr. Chairman, for 
allowing me to sit in. I very much appreciate this.
    My concern is that the Indian Point nuclear facility lies 
in my district in Westchester County. It has a very close 
proximity with New York City, and it is a highly visible target 
for terrorists. And security of the plant is a top priority of 
mine. You may or may not know that the planes that took down 
the World Trade Towers flew over the Indian Point nuclear 
facility on their way to New York City.
    Currently, outside of the private security that is provided 
by the plant's owners, the main source of protection is the New 
York Naval Militia. Two militia vessels are stationed in the 
Hudson near the Indian Point patrol for water-borne attacks. 
The Naval Militia is good, brave volunteers who have an 
unfortunate lack of adequate resources.
    As you can imagine, I am very interested in what the Coast 
Guard is doing to augment this really strong volunteer force, 
and gentlemen, I have been on the boat with them. So I know 
what they are doing, I know how they are equipped, and I am 
interested in what you are doing to try to support them. I 
don't feel that what you are doing is enough.
    I was told in January that the Coast Guard conducts a 
weekly patrol of a power plant with a cutter, WLR, it is a 65 
foot inland tug. That is the picture of the tug. And I also 
understand the Coast Guard provides a weekly fly-by.
    Admiral Nimmich, both you and I know that the Coast Guard 
tug is not a fast or a well-armed vessel. What the people have 
on that vessel in terms of guns is sidearms. The WLR's top 
speed is 10 knots. Anyone, including a terrorist, can buy a 
boat that is two or three or four times faster than the WLR.
    I don't know how the Coast Guard intends to stop a high-
speed boat loaded with explosives with people who want to kill 
themselves, blow themselves up with the boat. I don't know how 
they expect a tug to be effective at that. The terrorists have 
used boats like that in the past in Israel and in locations in 
the Persian Gulf. I am wondering if it wouldn't be more 
appropriate to assign a high speed patrol boat with a weapon 
that can sink a boat, like a Cyclone or an Island class cutter.
    Small arms are only going to deter somebody. They can't 
stop a boat crew that wants to die. The only weapon, it needs 
to be at least a 25 millimeter or higher cannon, and the WLR 
has no fixed armament, with the Coast Guard and Israeli 
experience with suicide boats show a boat sinking weapon of 25 
millimeters is need. There are no WYTL class tugs that have 
ever been deployed in the Persian Gulf to protect. Neither we 
nor the Israelis guard our naval port facilities in the Middle 
East with tugs.
    So why would the Coast Guard use a tug for a waterside 
nuclear facility in New York? That is my question.
    Admiral Justice. Yes, ma'am. Thank you for the question.
    As the Coast Guard works with the industry, State, locals, 
as we look at the infrastructure that needs protection in an 
area. We look at it, we see what is available, we see what the 
security plans are. Then as we take the threat-based approach 
to it, then there is, what kinds of resources can we apply, 
given the piece.
    What I would answer would be that, on this issue, I will 
take back this issue, we would be happy to talk with our people 
in New York. I will say that I actually agree with your 
construct that that vessel in itself is not properly armed to 
do the mission that you are talking about. What the depth of 
the water is there, I can't really speak to the peculiarities 
of the security.
    Mrs. Kelly. It is a pretty good deepwater port.
    Admiral Justice. And how far away the plan is from the 
beach and all those sorts of things. But I absolutely will take 
this back and we will look at what is being done and what else 
might be done, different sorts of assets that would be 
available to property attend to that concern.
    Mrs. Kelly. If we were able to have a cutter, if we were 
able to have a 25 millimeter or larger gun, I would feel a lot 
more comfortable about the job that the Coast Guard is doing. 
Because we right now are being protected by naval militia 
volunteers in a boat that they themselves have been working on 
to make it seaworthy.
    You talked about identified areas of interest being the 
things you want to protect. It seems to me that this is 
something we need to look at. I don't know what the Coast Guard 
uses to protect a high value asset in a central command. Is it 
a boat like that or more?
    Admiral Justice. Certainly not. But this location and area 
that you are talking about there gets into, it is a risk 
mitigation strategy, and what are the threats and how--we just 
can't protect everything with the best assets that we have. 
That remains, of course, a struggle that we are here talking 
about today, is how do we balance where we are going to put 
those assets to get the most effective use out of them to deter 
just what you are talking about.
    Mrs. Kelly. Well, that tug is plying the river. That tug 
also comes from New York City. So what you have with that tug 
is a way of, I assume, you are using it as a protective device 
from the river. But it is also New York City. So anything that 
is coming up to protect the nuclear plants is also going to be 
something I am sure you are going to be using for the ports in 
New York.
    Admiral Justice. Right.
    Mrs. Kelly. Perhaps we need to change the asset there and 
move from a 10 knot tug to something that does have the 
armament that would stop people who are bent on a suicide 
destructive act, with a loaded boat. And we should put the 
affixed armament in a way that fixed armament is out there, 
visible, so they know we will blow that boat up before it gets 
to shore.
    Admiral Justice. Yes, ma'am.
    Mrs. Kelly. I thank you, Mr. Chairman, for allowing me to 
come and speak----
    Admiral Nimmich. Mr. Chairman, if I may?
    Mrs. Kelly. Yes.
    Admiral Nimmich. Ma'am, what I want to add to the picture 
is, as you know, that is a very well traveled and highly dense 
pleasure boat area. They move up and down in a very narrow 
channel. One of the things that we need to look at is not just 
how to stop but how to prevent, what is the awareness we have, 
what is the regulatory framework by which we know what those 
boats are and what their intent is, not just merely the end 
product, but stop it before those explosives travel down the 
river, stop it at its source.
    So I ask that as we talk about the technologies and the 
information sharing and the regulatory framework we will need 
to put in place about knowing what recreational boats are 
doing, where they are going, who is on board, licensing of 
recreational boat operators, should be equally as important as 
how do we put the end, if we fail all the way up, we need that 
measurable line. But we really don't want to even get to that 
point where we have to use force. We really want to prevent it 
through knowledge up front.
    Mrs. Kelly. And I agree with you on that score. However, if 
we don't have the force in place, we couldn't use it if we 
needed it. And New York is a prime target. New York is the only 
place where we have experienced terrorism on our shores.
    The thing is that within the area of the nuclear plants, 
there are 20 million people. If you expand that, if there is an 
explosion at that plant and there is a release of some kind of 
nuclear material that goes into the air, that population grows 
to 50 million if there is a southern wind. There are so many 
people there, it is a high priority target for the terrorists. 
We need to be able to protect that target. And if you can do 
anything to help us do that, I would really, I think that the 
people in the area would feel a lot more comfortable than what 
we have now.
    I know the river.
    Mr. LoBiondo. Mrs. Kelly, would you yield?
    Mrs. Kelly. Yes.
    Mr. LoBiondo. There is something you can do. There is 
something that every member in Congress who comes to this 
Committee with a request like this can do. That is, redouble 
your efforts on Deepwater. They don't have the assets. We have 
this day in and day out.
    And we have a plan in place. We first want to keep it from 
slipping. We secondly want to accelerate. If Deepwater were 
fully online and everything were flowing with new assets coming 
in, the Coast Guard would be in a much better position to tell 
you an absolute yes.
    So I am sure they are going to go back, I am sure you have 
done a good job articulating this. But we are going to have 
another battle this year. The battle is shaping now. And again, 
we have a number of members who come in with similar type 
concerns, and the Coast Guard does a magnificent job with the 
resources at their disposal.
    But unless Operation Deepwater kicks into high gear and we 
get the money to keep it flowing, we are going to continue to 
have requests like this.
    Mrs. Kelly. Mr. Chairman, you probably know I stand right 
with you on this. Operation Deepwater is absolutely essential 
for the safety of the Nation. I certainly hope we are able to 
get Operation Deepwater passed and get you the money we need. 
This is high priority for the safety of all of us, but 
especially for people like the Chairman from New Jersey and me, 
from New York. We are in the target zone. We have experienced 
it. We know what it feels like, and we don't ever want this to 
happen again.
    So we will help, whatever we can do. And if there is 
something that we can do to help you, Admiral Nimmich, to get 
started on the study, I am glad to work with you in the Hudson 
region. A good part of the Hudson Valley falls within my 
district, and I am glad to be able to help you do anything I 
can there.
    Admiral Nimmich. Thank you, ma'am.
    Mrs. Kelly. I thank you, and thank you again, Mr. Chairman, 
for letting me come
    [Photographs submitted by Rep. Kelly follow:]
    
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LoBiondo. Thank you.
    I have a couple of questions I would like to ask. This sort 
of points at the discussion we have been having. But very 
pointedly, does the Coast Guard currently have adequate 
resources, including funding, personnel and assets to carry out 
all of its homeland security and traditional missions? Whoever 
wants to take a stab.
    Admiral Justice. Sir, that is a tough question, sir. The 
answer is that we have been magnificently funded, increased 
over the last few years. We have taken those resources that 
have been given to us and we work hard, across all missions, to 
focus on, we set goal for results, and we strive to get those 
results. And each year, it is not each year, it is each month, 
it is every quarter, we see how we are doing as we get toward 
those results. And if need be, we shift resources to react.
    And then of course, as importantly, sir, I do want to make 
the point that on top of the attending to our resources on a 
daily, weekly and monthly basis, you have built a surge 
capacity to be able to, like last summer, take Coast Guard 
completely out of the entire Country, go somewhere, do 
something very important, very needed, but still leave behind 
enough to get some adequate work done. So all those things go 
into the mix.
    Mr. LoBiondo. I certainly agree that the Coast Guard has 
done a magnificent job with the assets provided. But I guess it 
really wasn't a fair question, because the answer is obviously 
no. And the Coast Guard, the point I am trying to make is, the 
Coast Guard, over a long period of time, when asked that 
question over and over again, always said yes, we can do it. 
And the realities are that we are now in a position where we 
can't do it all because of how much has been thrown onto your 
plate.
    I think that the Coast Guard from top to bottom has got to 
understand a clear mission to articulate why you can't do 
things like Mrs. Kelly is asking for and why you can't do 
everything that is asked for.
    Along those same lines, has the deterioration of the 110 
foot patrol boat class and operational restrictions on the 123 
converted boats affected the Coast Guard's ability to carry out 
its missions?
    Admiral Justice. Yes, they have. Absolutely, sir. As I 
mentioned, I have just spent three plus years in Miami, very up 
close with our counter-drug and our counter-migrant mission 
down there. The patrol boats are the backbone of getting that 
mission done there, as well as they are out in San Diego and as 
well as they are doing fisheries up in New England. Our patrol 
boat challenge is there. We have a Deepwater solution. The 
Deepwater solution has been moved up in the cycle to be sooner 
than later. However, that answer is not here yet.
    In the meantime, there has been mitigation that we have to 
do to take care of the patrol boat challenge. That includes, we 
have gotten patrol boats from the Navy, as you know, the 179 
foot patrol boats that worked very well for us. We have had 
more 87 foot patrol boats that have been purchased and brought 
online, and we have used them as, they are not as capable maybe 
as a 110, but they do get the job done, as Coast Guard people 
do that.
    We continue to leverage our partners, particularly our DHS 
partners, to be smarter and to use their assets to support the 
patrol boats as needed. And as well, we have taken an 
aggressive effort to maintain the 110s. We have a 110 foot 
maintenance program at the Coast Guard yard that we are going 
to cycle these boats through that will get them, keep them 
around for a longer period of time.
    So all of that goes into trying to mitigate this patrol 
boat gap that we definitely have, sir.
    Mr. LoBiondo. Switching gears a little bit, can you tell me 
the time line for having Rescue 21 in place by region?
    Admiral Justice. Yes, sir, I can speak to it, and also I 
can submit a more formal answer for you. We are finishing the 
LRIP phase, as you know, in Mobile and St. Petersburg. Then we 
start to, as we finish the IOC phase in Atlantic City and the 
Eastern Shore, we will start to roll it out and we start to 
move north and south from there in year 2007. The goal, sir, of 
course, is to have it all done by 2011.
    It would be easier to get a picture to you with all the 
dates on it and provide it to you.
    Mr. LoBiondo. You'll submit something to us?
    Admiral Justice. Yes, sir.
    [The information received follows:]



    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. LoBiondo. OK. It has been three years since the long 
range vessel tracking system was authorized under the Maritime 
Transportation Security Act. And I understand the need that has 
been articulated, to work through the International Maritime 
Organization on this issue.
    But has the Coast Guard set up a voluntary program in the 
interim?
    Admiral Nimmich. Sir, we have voluntary programs where 
people can provide information. But as we talk in terms of long 
range tracking, I want to make sure that you're comfortable and 
aware that there is a long range tracking, non-voluntary system 
using national assets that we can give you a further brief on 
in a classified setting. So there is tracking of vessels.
    The voluntary tracking and the providing of voluntary 
information, which is critical to validate against those other 
systems that we would use, we have put out several experiments, 
some tests and evaluation and we are working very closely with 
IMO. We have Coast Guard flag officers at IMO as we speak now, 
and we believe we will get the long range tracking validation 
we want.
    The critical piece is it would be purely voluntary if we 
don't go with IMO. So having voluntary without any regulatory 
framework on which to enforce it doesn't protect you very much 
more than not having a voluntary system.
    Mr. LoBiondo. According to previous Coast Guard reviews, 
the AIS transponders would have resulted in only a .05 percent 
reduction in the number of fishing vessel casualties that 
occurred between 1994 and 2000. How do the cost of imposing AIS 
carriage requirements on all fishing vessels compare to the 
benefits that can be expected from such a requirement?
    Admiral Nimmich. Well, sir, as you know, the legislation in 
ESA 2000 required that fishing vessels be included in their 65 
feet and greater. As you indicated in your opening remarks, or 
Representative Filner indicated in his opening remarks, we have 
not closed that gap and we are moving in that direction.
    We have a notice for public rulemaking prepared to be 
released in the very near future that starts to close that gap. 
We are working with the fishing industry to find a viable 
solution between the vessel monitoring that they are currently 
required under fishing regulations and the AIS we would like 
for broader information, both for safety, but also security, 
and how we might be able to utilize that VMS information in a 
way that would produce what we need on the security side.
    As you know, that is point to point information that is 
restricted in our use. So if we can expand the use of that 
information, we may be able to find a compromise position with 
the fishing industry. We are looking at that now, sir. But even 
that 5 percent, if it saves a few lives, may be worth that 
$3,000 to $4,000 investment for an AIS system on a fishing 
vessel.
    Mr. LoBiondo. OK. I think that is all I have at this time. 
I want to thank you both for being here, and the Committee 
stands adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned.]




    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

</pre></body></html>
